r

ORIGINAL
Supremo Court, U.S.
FILED

11

JUN 0 3 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Catrina Turner,
Petitioner,
vs.
Orange County Social Services,
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Fourth Appellate District,
Division Three

PETITION FOR A WRIT OF CERTIORARI
Catrina Turner
Pro Per
228 Park Avenue S PMB 55828
NEW YORK, NEW YORK10003
Fax: (888) 672-7835
ct@justiceforourpeople.com
Appellant

I.

Question Presented

1. Does the act of forcefully administering psychotropic medications to a child
before trial violate the IV and VI amendments in the absence of a court order and
without notice to a parent?
2. Does the act of requesting a one-year class for child endangerment two years
after the initial court ruling specifying a defendant’s punishment violate the VIII
amendment?
3. Does the limitation of a parent’s speech by a state agency citing privacy
violate the first amendment when the parent is speaking of matters of public concern
regarding a child’s safety and liberty interests?
4. Is the dismissal of new evidence that is exculpatory in nature violate the V,
VI and XIV amendments?
5. Can the exposure of an individual’s medical record which is a violation of
HIPPA also be an infringement upon the XIV amendment?

r
II.

Table of Contents

I.

Question Presented...................

I

II.

Table of Contents.....................

li

III.
IV.

Table of Authorities..................
Petition forWrit of Certiorari

HI

V.

Opinions Below...................................
Jurisdiction..........................................
Constitutional Provisions Involved

Ill

Statement of the Case.....................

3

VI.
VII.
VIII.
1.
2.

PRESENTATION OF NEW EVIDENCE......................
DIRECT APPEAL..........................................................

REASONS FOR GRANTING THE WRIT

IX.

1
1
1

10

13
14

A.

Legitimacy is a powerful element in any democracy and this court has ruled that
speech regarding disclosures of corruption of public officials is secured by the
14
first amendment and is a matter of public interest

B.

The California Supreme Court denied rehearing on an important question
regarding the constitutionality of administering antipsychotic medication that
conflicts with this court’s previous assessment......................................................... 15

X.

CONCLUSION

17

XI.

APPENDIX
APPENDIX

A
B
in.

r
III.

Table of Authorities
Cases

Riggins v. Nevada. 504 U.S. 127, 112S.Ct. 1810, 118 L.Ed.2d 479 (1992)

1,3
5

Hardwick v. County of Orange,844 F.3d 1112 (9th Cir. 2017)

5

Rhodes v. Chapman ,452 U.S. 337(1981)
Hone v. Pelzer. 536 U.S. 730 (2002)

6

Nicini v Morra. 501 U.S. 171,177 (1991)

6

Miller v Citv of Philadelphia. 174 F.3d 368 (3rd Cir. 1999)

7

Wallis v. Snencer. 202 F.3d 1126 (9th Cir. 2000)
Hvland v. Wonder. 117 F.3d 405 (9TH Circuit. 197)

7

15

United States v. Ruiz-Gaxiola. 623 F.3d 684 (9th Cir. 2010)

16,17

Convention on Human Rights of the Child

Art. 19

Declaration of Independence
Statutes

28U.S.C. § 1257

1

42 U.S. Code §1985(3)

8
Constitutional Provisions
1, 15

United States Constitution, Amendment I
United States Constitution, Amendment IV

5

United States Constitution, Amendment VI

2

United States Constitution, Amendment XIV

5

United States Constitution, Amendment VIII

2

m

IV.

Petition for Writ of Certiorari

C.T. parent of the children and sole custodian guardian of the children listed in
this petition files this Writ of Certiorari based upon an appeal submitted to the Fourth
District Court of Appeals Division Three.
V.

Opinions Below

The California Supreme Court denied the petition without comment. The
California Court of Appeals Division Three denied the petition stating assertions of no
arguable issues.
VI.

Jurisdiction

The petitioner’s request for hearing to the California Supreme Court was denied
on March 30, 2021. Ms. Turner invokes this Court's jurisdiction under 28 U.S.C. §
1257, having timely filed this petition for a writ of certiorari within ninety days of the
California Supreme Court's denial.
VII.

Constitutional Provisions Involved

United States Constitution, Amendment I:
Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble, and to petition the Government
for a redress of grievances.

1

United States Constitution, Amendment IV:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized.
United States Constitution, Amendment VI:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and to
be informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defense.

United States Constitution, Amendment XIV:
All persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
United States Constitution, Amendment VIII:
Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.

2

VIII. Statement of the Case
This case initiated in 2015 with allegations of physical child abuse brought by
the respondent against petitioner despite the children being in daycare 40 hours a
week with mandated reporters continuously from birth. During the procedural phase
of detention, a physician prescribed D.L. petitioner’s child with psychotropic
medications without a court order in violation of the VI and XIV amendments of the
U.S. Constitution and without notice to the petitioner under the due process clause.
This court held in Riggins v. Nevada that an individual had a right to freedom from
unwanted psychotropic medications. In addition, it was further ascertained that the
administration of antipsychotic drugs “can significantly alter the demeanor of the
defendant during the trial and on the stand, it can amount to a manipulation of
evidence by the state.” D.L. was under the influence of these antipsychotics during
the trial and exhibited bizarre behavior as evidenced by the trial record as a witness.
Furthermore, the physician prescribed the antipsychotic without reviewing D. L’s
medical record and history. An employee of the respondent testified under oath as
managerial supervisor that she had not given clearance for the antipsychotic to be
given. Despite this the antipsychotic has continued until this date despite D. L’s
medical record prior to showing no need for the medication.
The petitioner in August 2020 submitted a JV180 requesting return of the
children, presented new evidence that showed the district court record had significant
material factual errors that were in refute to recorded documents and litigated on
record as to exculpatory evidence that revealed that the respondent had maliciously
3

been aware of the factual inaccuracies. The district court in its decision agreed that
changed circumstances had been proven as a legal proponent of the request, but that
the “best interests of the children” had not been presented.
Petitioner disagrees with this assessment that the “best interests of the child”
had not been proven. Petitioner in the JV180 submitted factual evidence in which
some incidents were in the court record which revealed physical abuse that had
occurred to the children under the respondents’ care. This abuse consisted of medical
malfeasance, physical injury resulting in one the children being admitted to a hospital,
neglect in allowing one of the children to continue a relationship with a child
pedophile from the initiation of the case until 4 years later, refusing educational
supports requested by the petitioner and copious other examples which have
significantly affected the life, liberty and happiness of the children. The petitioner
submitted explicit examples of a consistent pattern of racial discrimination exhibited
by the respondent that included emails, documents, and perjured testimony. These
incidents were submitted to the district court in the JV180 consisting of over 180
documents that revealed a direct danger to the children of the petitioner while in the
physical custody of the respondent. The petitioner still retains sole legal custody of
the children and is the educational holder of the children as well. The respondent has
failed to notify the petitioner of significant dangers that has occurred to the children.
This is a matter of public concern as the respondent is a government agency
that should be operating under Welfare and Institutions Code of the State of
California. Statutes are in place directing the agency in all aspects of Juvenile
Dependency from case initiation to federal compliance notice exemplary of the VI

4

amendment due process clause. However, the record shows that the respondent has
materially omitted following key provisions of Welfare and Institutions Code and
violated constitutional amendments not only for this petitioner, but in countless other
cases before federal courts. This is an operational maneuver of the respondent and
exemplifies their logistical policies as evidenced in Hardwick v. County of Orange in
which the respondent declared a “specific granular right to be free from deliberately
fabricated evidence in civil child dependency proceedings where a parent's or child's
protected familial liberty interest is at stake had not yet been "clearly established".
The issue in this case is equivalent to the situation at hand in this case. The fabrication
of material evidence and factual omissions presented into the case record have created
irreparable harm to the petitioner and my family. The continued detainment of the
children under false pretenses has caused significant emotional pain to the petitioner
and children. In addition, the enormous retaliation the petitioner has experienced from
the respondent in violation of the VIII amendment at this juncture appears
irreconcilable. In Rhodes v. Chapman it was established that punishments for
perceived infractions have constitutional limits.
When surveying and reviewing the California Community Licensing
Complaint database CDSS.CA.GOV for many of the foster care facilities listed for
the respondent it is quite clear that the actions that the petitioner has experienced from
the respondent is commonplace for other parents. This is a matter of public record and
transparency. The issues as stated previously have all occurred before with other
children and families within the foster care system of the State of California. The
complaints process is inadequate and fails to derive solutions to policy issues.

5

The petitioner was subjected to cruel and unusual punishment at the behest of
the respondent and its representatives. Initially, the respondent requested petitioner
adhere to parenting classes, domestic violence education, psychological review and
anger management. Despite petitioner’s objections to these requests all services were
completed in 2016. The respondent later requested in 2017 two years after the initial
complaint that the petitioner complete a 52-week child abuse program in violation of
the VIII amendment. This subjected the petitioner and children to an extended
timeline for completion and prevented any reunification while violating statutory
limits for the juvenile dependency guidelines. Petitioner objected to this request as
retaliatory as pending complaints against the respondent and representatives were
submitted to several administrative agencies including The California Bar
Association, DEA and the complaints division of the California Social Services.
In Hone v. Pelzer the court held that some conduct should be clear that it is
unconstitutional, antithetical to human dignity or offended contemporary conceptions
of decency. The respondent and the district court were notified two days after the
initiation of the case that one of the children was in direct danger from a pedophile.
The inaction of the agency in dealing with this threat and the long-term occurrence of
inappropriate communications stemming five years was a violation of the
respondent’s affirmative duty of care as defined in Nicini v Moira the court held that
when children are placed "in state-regulated foster care, the state has entered into a
special relationship with that child which imposes upon it certain affirmative duties.
The failure to perform such duties can give rise, under sufficiently culpable
circumstances, to liability under section 1983." Nicini v. Morra, 212 F.3d 798 (3rd
Cir. 2000). Children in state-regulated foster care are rendered dependent upon the
6

state for his or her basic needs. The inaction allowed a criminal act to continue
without the state investigating or impeding its continuance. This level of “negligence”
seems to rise to the level of liability where it “shocks the conscience” as defined in
Miller v City of Philadelphia and encompasses deliberate indifference reaching a
“level of gross negligence” as petitioner had contacted the Federal Bureau of
Investigation and submitted to the trial court text messages that displayed an adult
male speaking of sado-masochistic acts with the petitioner’s underage child.
Furthermore, the agency allowed the communications for an extensive period of time
when petitioner requested the respondent call law enforcement, and the requests were
refused. In Wallis v Spencer it was stated

44M

In cases of alleged child abuse,

governmental failure to abide by constitutional constraints may have deleterious long­
term consequences for the child and, indeed, for the entire family. Ill-considered and
improper governmental action may create significant injury..." Wallis v. Spencer, 202
F.3d 1126 (9th Cir. 2000). The respondent administered psychotropic medication to
the petitioner’s child without notice and a caseworker admitted on record during trial
that the medication had not been reviewed or approved by the department. The district
court had not provided a court order for the medication or noticed D. L’s parents- the
petitioner. In "Wallis v Spencer..." Wallis v. Spencer, 202 F.3d 1126 (9th Cir. 2000) it
was held that the
“Constitution assures parents that, in the absence of parental consent, [physical
examinations] of their child may not be undertaken for investigative purposes at the
behest of state officials unless a judicial officer has determined, upon notice to the
parents, and an opportunity to be heard, that grounds for such an examination exist

7

and that the administration of the procedure is reasonable under all the
circumstances...” Wallis v. Spencer, 202 F.3d 1126 (9th Cir. 2000)
The petitioner questions whether there was an investigative function to the
administration of psychotropic medication at all due to the respondent’s employee
admitting at trial that D. L’s medical record had never been reviewed by any of the
dispensing physicians.
Finally, this petitioner presented to the district court direct retaliatory incidents
in which when the petitioner submitted to administrative agencies state and federal
complaints seeking investigation into the respondent’s actions regarding psychotropic
medication administration, inappropriate communications on 12/14/15 in the presence
of CAST and police, calls to DEA regarding medication to D.L, California Medical
Board in complaint of medication administration without contacting petitioner and
California Bar Association attorney complaints and even emails to the executives ol
California Social Services the respondent retaliated in each case against the petitioner
with the assistance of countless individuals of different capacities as CASA’s,
attorneys and many others. This petitioner believes that these individuals have
violated 42 U.S. Code §1985(3) in conspiring against the petitioner in preventing the
children’s return. In one example presented to this court a child psychologist who was
present with petitioner’s child in an incident in which the N. T’s arm was broken and
he sustained significant injury while in the care of the respondent was allowed to
submit a report stating the children should not return despite the fact of conflicts of
interest in relation to open complaints of abuse against, he and the respondent.

8

Most recently, in an educational meeting regarding D.L. petitioner advised respondent
that D. L’s medical record which was shared by respondent with the school
psychologist was available with his educational record in its entirety against HIPPA
law. The respondent displayed complete and deliberate indifference to this fact and
have failed to respond to the petitioner’s request to safeguard D. L’s private medical
record. These acts and more have availed this petitioner to believe that respondent has
acted not in its official capacity, but in direct violation of petitioner’s and children’s
constitutional

rights

with

malice,

indifference

and

impunity.

Furthermore,

representatives of the respondents including CASA has reacted in ways antithetical to
the Bill of Rights, International Human Rights law and the U.S. Constitution. This is
not stated lightly, but after countless experiences with the individuals in this record
the petitioner is convinced of the prior statement.

9

1. Presentation of New Evidence

On August 31, 2020, the petitioner submitted to the trial court emails, previous court
reports expanded with emails from social workers, requests from the respondent
completed by the petitioner with dates showing completion of the family reunification
plan. The petitioner submitted a letter from California Bar Association in which a
determination disclosed negligence on the behalf of petitioner’s attorneys in the case
after investigation and countless documents showing petitioner’s compliance with
orders.

The petitioner argued before the court that due to a myriad of complex issues that
violated the constitutional rights of the petitioner and children reunification had been
prevented through deliberate and malicious actions of the respondents Orange County
Social Services. The petitioner argued that due to historical implications of the
pandemic that the trial court allow the petitioner to reunite and expand visitation. The
petitioner had advised that one of the children C.W. had flown to New York which
was ordered by the trial court and stayed for over a week with petitioner. Petitioner
argued that there was never a danger to petitioner’s children who were with mandated
reporters 40 hours a week from birth and that the statements of these mandated
reporters were on record before this court. In fact, during police interviews with
neighbors and countless others there was never any individual that expressed a danger
to these children. The trial court agreed that changed circumstances were shown, but
as stated before that the best interests of the children had not been shown. The
petitioner once again disagrees with this assessment and finds the respondent is totally
1

and significantly biased against this petitioner and children. That their representatives
should be investigated based not only on this case, but countless others in which the
same incidents have occurred.

The respondent has even tried to prevent the

petitioner from speaking regarding this case and bringing to public attention the
corruption that is evident within the respondent’s actions in violation of 1st
amendment of the U.S. Constitution. This petitioner wants to be clear that not
every individual that has had contact with this case is in violation of the offenses as
described before, but specific individuals over the space of time has deliberately
violated this petitioner’s and children’s rights. This included submitting reports
to the district court that were inconsistent with documents outside of the court’s
review but was available to the respondent. The court record in reports has
testimony from psychologists and others in which the petitioner was found to be
highly competent and saw no reason as to why reunification should not occur. One
report stated correctly that the petitioner described constitutional violations and the
petitioner would submit to the courts in pursuit of justice. The petitioner has paid
for

services

the

respondent

has

never

supported

this

petitioner towards

reunification. The petitioner has scheduled visits delegating times for visits that
should have been facilitated by the respondent. The petitioner never agreed to a
52-week class and submitted complaints to the California Bar Association proving
this. This petitioner has gone above and beyond the realms of any court of law in
compliance towards reunification in the face of discrimination and extreme malice to
reunify the family. All of this was submitted to the trial court. The petitioner under
coercion was forced into Nolo Contendere pleadings despite petitioner wishing to go
to trial.

1

The petitioner has watched as countless families that were supervised under the
respondent were reunified. However, the petitioner who had maintained consistent
housing, started businesses, completed degrees and continued to comply with
excessive orders was refused reunification. Every action that the petitioner made was
in advancement of the children’s return this included driving over 100 miles per
weekend for a year, attending every visit, but two since the initiation of this case,
providing food, clothes and other necessary items for the children non-stop,
advocating for the children’s safety, education and basic needs to the respondent and
others. Despite all this reunification has not occurred and the petitioner still is
retaliated against to this date from the respondent.
So, it is with this in mind that the petitioner asks that this court review and allow for a
remedy in these matters.

1

r

2.

Direct appeal

On direct appeal, the petitioner submitted the Fourth Appellate District Division
Three a copy of the original pleadings in the district court, but against petitioner’s
request a Sade C. brief was filed stating no arguable issues. The district court originally
filed a response of denial with incorrect information, but immediately corrected the
defect with a new denial.
The petitioner requested a rehearing and was denied. The petitioner submitted
a brief with the original complaint with a small portion of documents which consisted
over 100 pages to the California Supreme Court. The court accepted and issued a denial
with no comment.
This petitioner is now submitting the request to this court for review in a timely
manner.

1

IX.

REASONS FOR GRANTING THE WRIT

A. Legitimacy is a powerful element in any democracy and this court
has ruled that speech regarding disclosures of corruption of public
officials or misconduct is secured by the first amendment and is a
matter of public interest.
In Hvlancl v. Wonder. 117 F.3d 405 (9th Circuit.197), Courts adopted the view
that the loss of a valuable governmental privilege or benefit due to speech is a pertinent
question in first amendment infringement cases. The petitioner experienced limitations
as posed by the trial court and respondent requesting not to speak about elements of
this case. The request is prejudicial towards the petitioner in that it limits a fundamental
right to speak on matters that are pertinent to the children and allows misconduct to
continue without third party review. The petitioner experienced excessive intentional
emotional distress due to extreme cases of abuse of the children while in the
respondent’s care. In each instance where this petitioner sought to remove the threat to
the children retaliation occurred in which the respondent would manipulate court
reports, unjustly use coercion in stating the children did not return, but not allowing the
children to testify as to their needs and desires in open court on the record, intentionally
did not inform petitioner of serious incidents in where one of the children was missing
until hours after the child was missing, intentionally did not inform petitioner that the
child D.L. was in the emergency room with cuts that would need 10 stitches,
intentionally did not inform petitioner when N.T. sustained serious injuries of broken
bones from a ‘Tall” obtained during custody with the respondent and countless other
examples. In each incident when the petitioner became aware appropriate complaints
were filed to protect the children from further harm.

1

r

When such incidents are not addressed by a public official question of the
legitimacy of their positions within government become paramount. Most would agree
that public officials should maintain some protection of liability from frivolous claims.
However, never should misconduct and corruption be cloaked under claims of
immunity in which an individual can create such a hostile and torturous environment
for any individual.
B. The California Supreme Court denied rehearing on an important
question regarding the constitutionality of administering antipsychotic
medication that conflicts with this court’s previous assessment.
In Riggins v Nevada this court ruled that the forced administration of
antipsychotic medications before trial violates the VI and XIV amendments of the
United States. Although, this had already been established the California Supreme
Court and the Fourth Appellate District Division Three were moot regarding these
points. There was no ruling as to the constitutionality of this act and how it continues
to adversely affect D.L. to date due to the erroneous administration of the drug without
notice to the parents and without a court order. The medical record if reviewed had
shown that to the very date of detention D.L. had saw a plethora of physicians and not
one had prescribed antipsychotic medication.
In United States v. Ruiz-Gaxiola that stringent review is necessary ascertaining
the facts before forced administration of psychotropic medication which infringes upon
a fundamental liberty interest. The trial court had not made any factual findings in this
regarding administration and the prescribing physician did not review the child’s
medical record to provide any factual finding to the court. The information stated in a
later report after the error for forced administration were subjective and did not involve
1

scientific or medically appropriate standards which require reviewing a patients’
medical history for safety. A later trial date a physician under the employ of the
respondent reviewed the medical records and spoke on record of the numerous doctor’s
notes that indicated “no abuse” and no history of mental illness. "Antipsychotic
medications are designed to cause a personality change that, “if unwanted, interferes
with a person's self-autonomy, and can impair his or her ability to function in particular
contexts." United States v. Ruiz-Gaxiola. 623 F.3d 684 (9th Cir. 2010) The continual
administration of this antipsychotic without proper review presents a significant danger
to D.L and to his liberty interest under the XIV amendment of the Constitution.
Children should enjoy the same liberty interests as adults under the U.S.
Constitution and Human Rights Law. In fact, the Convention on the rights of the child
emphasize freedom from physical abuse, injury, mental violence and negligent
treatment as emphasized in Article 19. These rights are further emphasized in the
Declaration of Independence “We hold these truths to be self-evident, that all men are created
equal, that they are endowed by their Creator with certain unalienable Rights, that among these
are Life, Liberty and the pursuit of Happiness. —That to secure these rights, Governments are
instituted among Men, deriving their just powers from the consent of the governed.”

1

X.

CONCLUSION

For the foregoing reasons, Ms. Turner respectfully requests that this Court issue
a writ of certiorari to review the judgment of the Fourth Appellate district Division
Three and The California Supreme Court.
II

,

1

DATED this 27th day of May 2021.
Respectfully submitted,
Catrina Turner
Pro Per
228 PARK AVENUE
NEW YORK, NEW YORK 10003
Fax: (888) 672-7835
E-Mail: ct@justiceforourpeople.com

18

